No. 19-

 

 

IN THE

Supreme Court of the Anited States

VALERO ENERGY CORPORATION AND
AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS,

Petitioners,
v.

ENVIRONMENTAL PROTECTION AGENCY,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,942 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 30, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
